CERTIFICATE OF COMPLIANCE
No. 19-1326
E. Thomas Scarborough III, Petitioner
v.
C.C.P. Northampton, et al, Respondents

As required by Supreme Court Rule 33.1(h), I
certify that the Supplemental Brief in Support of
Petition for Writ of Certiorari contains 2,613 words,
excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.

Executed on June 24, 2020

E. Thomas Scarborough III, pro se

